a:

No.

\\ -

L. ’' V.. ./ 1

;

1 V /-

\ -•

Supreme Court, U.S.
FILED

OCT 1 S 2020
IN THE

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES

— PETITIONER
(Your Name)
vs.
— RESPONDENTS)
ON PETITION FOR A WRIT OF CERTIORARI TO

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

M- L ■ 00 lv* ■Hl
(Your Name)

(Address)

(City, State, Zip Code)

(Phone Number)

‘

QUESTION(S) PRESENTED

Should teachers be allowed to hurt students?

Should principals be allowed to lie on students?

Should a parent have rights to report wrongdoing witnessed by the parent?

Should students be expelled from school because a parent reports an assault and abuse of student?

Should teacher and principal face no consequence in the willfully wrong handling of assault and abuse of
a student?
Should principal be allowed to tell a student that she is lying when the student never reported anything?

Should students be respected?

Should parents be respected?

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A
APPENDIX B

flcbfrc P^dCerl'

APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

firWRITS

>/

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

STATUTES AND RULES

Indiana Code Title 20. Education § 20-19-3-11

The model for child abuse and child sexual abuse response policies and reporting procedures described
in subdivision (2) must include information on the duty to report suspected child abuse or neglect under
1C 31-33-5. To identify or develop models under this subsection, the department may not hire
additional staff members or expend funds not already included in the department's budget.

OTHER

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
For cases from federal courts:

A

The opinion of the United States court of appeals appears at Appendix JJ__to
the petition and is
[ ^reported at
f Ctl/
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ _ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

\
\

JURISDICTION
\y\ For cases from federal courts:
The date on which the United States Court of Appeals decided mv case

was October 6

[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

)

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Assembly Bill No. 1432
CHAPTER 797
An act to repeal Section 44690 of, and to repeal and add Section 44691 of, the Education Code, and to
amend Section 11165.7 of the Penal Code, relating to child abuse reporting.

[ Approved by Governor September 29,2014. Filed with Secretary of State September 29,2014. ]
LEGISLATIVE COUNSEL'S DIGEST

AB1432, Gatto. Mandated child abuse reporting: school employees: training.

The Child Abuse and Neglect Reporting Act requires a mandated reporter, which includes a teacher or
one of certain other types of school employees, to report whenever he or she, in his or her professional
capacity or within the scope of his or her employment, has knowledge of or has observed a child whom
the mandated reporter knows or reasonably suspects has been the victim of child abuse or neglect.
Existing law requires the State Department of Education to develop staff development seminars and any
other appropriate means of instructing school personnel in the detection of child abuse and neglect and
the proper action that school personnel should take in suspected cases of child abuse and neglect.
Existing law requires school districts that do not train their employees in the duties of mandated
reporters under the child abuse reporting laws to report to the State Department of Education the
reasons why this training is not provided.

All sources from the internet.

STATEMENT OF THE CASE

Upon entering the school, a teacher slammed the door on KN's arm, while I watched in horror in my car.
I got out of the car and walked up to door. The same teacher came to door. I looked at her. I asked for
her name. After school, I reported this matter to the principal. The principal said the KN was lying and
expelled her from school. KN did not report the matter, I did. KN was expelled from school because I
reported the assault/abuse from the teacher. I asked the teacher, why she did it, and she stated why.
The principal told her that she did nothing. KN was lying and she cannot have liars at her school. KN
was devastated because she loved her school and she loved Jesus. Now, she doesn't love school or
Jesus like she used to. So, she was also abused emotionally in this matter, and she still remembers that
incident. And verbal abuse, the principal said that she was a liar even though I reported the matter.

REASONS FOR GRANTING THE PETITION
The reason for granting this petition is that children need to be protected with fear of losing anything
and they need help to be protected, and, parents need help in discussing assault and abuse by teachers
in schools and be heard without having to go through courts.

I

(

CONCLUSION

The petition for a writ of certiorari should be granted.

ispectfully submitted,

Date:

iNf-XP

